CERTIFICATE OF COMPLIANCE
BETZAIDA P JERNIGAN
Petitioner (Pro Se)
v.

Case No

ROBERT WILKIE, SECRETARY OF THE
DEPARTMENT OF VETERANS AFFAIRS
Respondent
As required by the Supreme Court Rule 33.1(h), I
declare under penalty of perjury that the petition for a
Writ of Certiorari contains 5,545 words, excluding the
parts of the petition that are exempted by Supreme
Court Rule 33.1(d) under the laws of the United States
of America that the foregoing is true and correct.
Executed on May 11, 2020.

7

rf /

Betzama P Jerh^gan (ProjSe)
471 E Kicklighter Rd
Lake Helen, FI 32744
(757)513-1941
Email: bpjok2@gmail.com

